TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Financial Controls Over the Health Coverage
                 Tax Credit Advance Payment Process Need
                               to Be Enhanced



                                              May 2006

                              Reference Number: 2006-10-085




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  May 26, 2006


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Financial Controls Over the Health Coverage Tax
                                 Credit Advance Payment Process Need to Be Enhanced
                                 (Audit # 200510024)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) had established effective controls over advance payments made in connection with the
 Health Coverage Tax Credit (HCTC) program. We also reviewed selected samples of Tax
 Year (TY) 2004 HCTC advance payment-related transactions.

 Synopsis
 The HCTC was established by the Trade Adjustment Assistance Reform Act of 20021 to help
 certain displaced workers and certain retirees pay for their health insurance by establishing a tax
 credit for 65 percent of the premium cost for qualified coverage. The Act also includes a
 provision that allows for the incremental advance payment of the HCTC by the Department of
 the Treasury directly to a taxpayer’s health plan administrator. The taxpayer is responsible for
 paying the remaining 35 percent of the health coverage premium. In TY 2005, over $70 million
 in advance payments were made on behalf of approximately 22,000 taxpayers who either lost
 their jobs because of increased imports or for whom pension plans were terminated by former
 employers due to severe financial difficulties. To participate in the program, individuals must
 first complete an application attesting to their eligibility and provide a current health coverage
 invoice.
 Generally, adequate procedures and controls have been established to ensure HCTC advance
 payment amounts are accurate. We analyzed a judgmentally selected sample of 82 taxpayers for


 1
     Pub. L. No. 107-210, 116 Stat. 933 (2002).
                 Financial Controls Over the Health Coverage Tax Credit Advance
                             Payment Process Need to Be Enhanced



whom advance payments were made in TY 2004 and found the advance payments were
consistent with the application information and documentation provided by the taxpayers. Also,
taxpayers participating in the advance payment program are notified monthly of the amount and
due date of their portion of the health care premium.
The IRS is continually evaluating the advance payment process to identify opportunities for
improvement. For example, in September 2005, the IRS implemented a number of systemic
improvements to the advance payment program that should allow it to better identify changes in
active participants’ eligibility status. Also, the IRS has adequately promoted the availability of
the advance payment option. Monthly HCTC advance payments made by the Department of the
Treasury increased from $3 million in January 2004 to $6 million in December 2005. Total
annual HCTC advance payments made by the Department of the Treasury similarly increased
from $55 million in TY 2004, the first full year the HCTC advance payment option was
available, to over $70 million in TY 2005.
We did, however, identify three critical areas in which we believe controls over the HCTC
advance payment program need to be enhanced. First, controls over the tracking and collection
of receivables resulting from advance payments subsequently identified to have been made in
error need to be improved. For example, a review of a judgmental sample of 52 taxpayers who
received erroneous advance payments identified an average lapse of 479 calendar days between
the initial identification of the potentially erroneous payments and the IRS’ first contact with the
taxpayers to request repayment. The total amount of the receivables associated with the 52
taxpayers was $73,667.
Second, advance payment program information provided to taxpayers annually for use in
preparing their tax returns is confusing and insufficiently detailed to readily support the
taxpayers’ calculations of any yearend credits they may be due. Also, the instructions for the
TY 2005 Health Coverage Tax Credit (HCTC) Advance Payments (Form 1099-H)2 contained
incorrect information regarding key data being reported on the Form. We advised IRS
management of our concerns on January 9, 2006; they agreed with our conclusions and prepared
a one-page notice for inclusion with Form 1099-H for TY 2005. The notice clarified the
information provided on Form 1099-H and included additional instructions regarding how this
information should be used in calculating any yearend credit.
Finally, although the advance payment program provided over $70 million in advance credit
payments in TY 2005, the IRS does not have a reliable and comprehensive measure of the
accuracy of information provided by taxpayers in connection with their participation in this
program. The IRS has evidence suggesting this is a potential tax compliance issue, by virtue of
its study of compliance trends relating to taxpayers who claimed the credit in TY 2003. The IRS


2
  Form 1099-H provides a taxpayer with the total amount of qualified health insurance payments paid in advance to
a qualified health insurance coverage provider by the Department of the Treasury on the taxpayer’s behalf.
                                                                                                                    2
                 Financial Controls Over the Health Coverage Tax Credit Advance
                             Payment Process Need to Be Enhanced



reviewed returns of 2,284 taxpayers who claimed the yearend credit. These reviews resulted in
the IRS adjusting about one-third of the returns, as 773 credits worth $3 million were partially or
wholly denied. Thus, the IRS needs to commit to an ongoing process addressing this compliance
issue to ensure all taxpayers claiming the HCTC are properly entitled to and have properly
calculated these benefits.

Recommendations
We recommended the Director, HCTC Program, establish general time standards for the
processing of advance payment-related receivables and develop an audit trail linking advance
payment receivables activity with the HCTC advance payment program taxpayer account
ledger.3 Further, the Director, HCTC Program, should track receivables balances and recovery
rates for both erroneous yearend refunds and erroneous advance payments, to aid in assessment
of whether a change in the treatment of these types of liabilities is warranted. We also
recommended the Director, HCTC Program, revise Form 1099-H instructions for TY 2006 and
study the feasibility of providing additional information on Form 1099-H to better assist
taxpayers in calculating the yearend credit. Finally, we recommended the Director, HCTC
Program, initiate a process providing for routine evaluation of the compliance characteristics of a
representative sample of taxpayers receiving the HCTC through the advance payment program.

Response
IRS management agreed with all of our recommendations. A manual process that allows the
HCTC Program Office to associate taxpayer receivable records in a subsidiary ledger with the
HCTC advance payment program taxpayer accounting ledger has been established. The IRS is
also taking the necessary actions to establish general time standards for processing advance
payment-related receivables consistent with IRS Examination function guidelines. Additionally,
receivables balances and recovery rates for advance erroneous payments are currently tracked in
a receivables ledger and are being used to make decisions in the treatment of repayment
activities. The IRS has also revised Form 1099-H and its associated instructions to clarify the
information provided to taxpayers and is considering seeking the authority to eliminate
Form 1099-H entirely. Finally, the IRS will provide for the development of a representative
sample of taxpayers receiving advance payments, to evaluate their compliance characteristics.
Management’s complete response to the draft report is included as Appendix IV.




3
 The system of records on which HCTC advance payment transaction information is captured, accumulated, and
compiled.
                                                                                                             3
               Financial Controls Over the Health Coverage Tax Credit Advance
                           Payment Process Need to Be Enhanced




Office of Audit Comment
In our opinion, eliminating Form 1099-H, as the IRS indicated it is considering, could have an
adverse impact on taxpayers’ ability to accurately calculate any yearend credit they may be due.
Form 1099-H assists taxpayers by summarizing advance HCTC payments made to the taxpayers’
health plan administrators. Taxpayers may also claim a credit at yearend for any payments they
made directly to their health plan administrators for eligible coverage provided during the tax
year.
Please contact me at (202) 622-6510 if you have questions or Daniel R. Devlin, Assistant
Inspector General for Audit (Headquarters Operations and Exempt Organizations Programs), at
(202) 622-8500.




                                                                                               4
                    Financial Controls Over the Health Coverage Tax Credit Advance
                                Payment Process Need to Be Enhanced




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Generally, Adequate Controls Have Been Established to Ensure
          Advance Payment Amounts Are Accurate ...................................................Page 2
          Controls Over the Tracking and Collection of Health Coverage Tax
          Credit-Related Receivables Need to Be Improved .......................................Page 3
                    Recommendations 1 through 3:...........................................Page 5

          Advance Payment Information Provided to Taxpayers for Use in
          Preparing Their Tax Returns Is Incomplete and Confusing .........................Page 5
                    Recommendations 4 and 5: ................................................Page 7

          The Internal Revenue Service Lacks a Reliable and Comprehensive
          Measure of the Overall Accuracy of Information Provided by
          Taxpayers in Connection With Their Participation in the Health
          Coverage Tax Credit Advance Payment Program. .......................................Page 7
                    Recommendation 6:..........................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Management’s Response to the Draft Report ......................Page 13
                 Financial Controls Over the Health Coverage Tax Credit Advance
                             Payment Process Need to Be Enhanced




                                            Background

The Trade Adjustment Assistance Reform Act of 20021 established the Health Coverage Tax
Credit (HCTC) to help certain individuals pay for health insurance by establishing a tax credit
for 65 percent of the premium cost for qualified coverage. Taxpayers eligible to claim the credit
fall into two categories:
    •   Trade-affected workers who have lost their jobs because of increased imports or a shift in
        production to another country. These taxpayers are classified as either Trade Adjustment
        Assistance or Alternative Trade Adjustment Assistance eligible.
    •   Individuals for whom pensions are being paid by the Pension Benefit Guarantee
        Corporation because their pension plans were terminated when their former employers
        went bankrupt or experienced other severe financial difficulties. These individuals must
        also be at least 55 years of age and not entitled to receive Medicare benefits.
Individuals receive the HCTC in two ways: in advance on a monthly basis or after the end of the
year when they file their Federal income tax returns. Individuals are not required to itemize
deductions or to owe Federal income taxes to receive the HCTC. The Internal Revenue Service
(IRS) provides the end-of-year HCTC to the taxpayer, while any advance payments made by the
Department of the Treasury on behalf of the taxpayer are paid to the health plan administrator
(HPA) in the form of a premium payment. In Tax Year (TY) 2005, over $70 million in advance
payments were made on behalf of approximately 22,000 taxpayers. For the advance credit, the
HCTC program remits payments directly to the HPA after the taxpayer is accepted for
enrollment in the program. The credit could first be claimed for the month of December 2002,
with TY 2003 being the first full year for the credit. Advance HCTC became available in TY
2003. Individuals receiving the advance HCTC may claim a credit at the end of the year for any
months in which they were eligible for the credit but did not receive it in advance.
We conducted our review during the period August 2005 through February 2006 at the HCTC
Program Office in Washington, D.C., the IRS Campus2 in Andover, Massachusetts, and the IRS
contractor sites in Reston, Virginia; Houston, Texas; and Waterloo, Iowa. The audit was
conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.



1
 Pub. L. No. 107-210, 116 Stat. 933 (2002).
2
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 1
                  Financial Controls Over the Health Coverage Tax Credit Advance
                              Payment Process Need to Be Enhanced




                                      Results of Review

Generally, Adequate Controls Have Been Established To Ensure
Advance Payment Amounts Are Accurate
Advance payments are paid by the HCTC program directly to the insurer or HPA for individuals
selecting the advance payment option. The individual is responsible for paying
35 percent of the health coverage premium, while the Department of the Treasury provides the
remaining 65 percent. The HCTC program then disburses the full cost of the health care
coverage directly to the insurer or HPA. To participate in the program, individuals must
complete an application attesting to their eligibility and provide a current health coverage
invoice. The day-to-day administration of the program is handled by a private contractor under
the oversight of the IRS HCTC Program Office.
Generally, adequate procedures and controls have been established to ensure advance payment
amounts are accurate. We analyzed a judgmentally selected sample of 82 taxpayers for whom
advance payments were made in TY 2004 and found the advance payments were consistent with
the application information and documentation provided by the taxpayers. Also, taxpayers
participating in the advance payment program are notified monthly of the amount and due date
of their portion of the health care premium.
The IRS is continually evaluating the advance payment process to identify opportunities for
improvement. For example, the IRS carefully evaluated 171 instances in TYs 2004 and 2005 in
which taxpayers for whom advance payments were made were subsequently determined to have
been ineligible for 1 or more advance payments. As a result of these reviews, the IRS
implemented a number of systemic improvements to more timely identify when taxpayers were
no longer eligible to participate in the advance payment program.
Specifically, in September 2005, the HCTC Program Office developed an automated process to
begin systemically identifying and notifying active participants nearing Medicare eligibility that
they will no longer be eligible to participate in the advance payment program once they become
eligible to receive Medicare benefits. A similar process was also developed regarding the
identification and notification of taxpayers nearing the end of their Consolidated Omnibus
Budget Reconciliation Act of 1985 eligibility, who likewise would be no longer eligible to
participate in the advance payment program.3


3
 Pub. L. No. 99-272, Title X, 100 Stat. 82, 222 (1986). The law requires certain employers with 20 or more
employees to offer continued coverage for individuals, with certain exceptions, who would have otherwise lost
employer-sponsored health coverage.
                                                                                                          Page 2
               Financial Controls Over the Health Coverage Tax Credit Advance
                           Payment Process Need to Be Enhanced



Finally, the IRS has adequately promoted the availability of the advance payment option.
Monthly HCTC advance payments by the Department of the Treasury increased from $3 million
in January 2004 to $6 million in December 2005. Total annual HCTC advance payments made
by the Department of the Treasury similarly increased from $55 million in TY 2004, the first full
year the advance payment option was available, to over $70 million in TY 2005.
However, we did identify three critical areas in which financial controls over the HCTC advance
payment process need to be enhanced.
   •   Controls over the tracking and collection of receivables resulting from advance payments
       subsequently identified have been made in error need to be improved.
   •   Advance payment program information provided to taxpayers annually for use in
       preparing their tax returns is incomplete and confusing.
   •   The IRS lacks a reliable and comprehensive measure of the accuracy of information
       provided by taxpayers in connection with their participation in the advance payment
       program.

Controls Over the Tracking and Collection of Health Coverage Tax
Credit-Related Receivables Need to Be Improved
The statute governing the HCTC does not specify how to disallow or recover either erroneous
yearend or advance payments. All other refundable credits are specifically addressed in the
Internal Revenue Code as being subject to deficiency procedures, which means they can be
disallowed by the IRS only through a formal examination. However, the HCTC was not
expressly included with other credits in the statute. Accordingly, the IRS has taken the position
that the HCTC, whether paid for a taxpayer in advance or claimed by the taxpayer at the end of
the year on a tax return, can be disallowed without a formal examination if found to be
erroneous. The amount disallowed is treated as an erroneous refund. When the IRS
subsequently identifies that an advance HCTC payment was made erroneously, it establishes a
receivable on a separate, manual ledger maintained by the HCTC Program Office. These
receivables are then forwarded to the IRS Andover Campus Accounts Management branch for
collection from the taxpayers. As of January 2006, 165 receivables related to erroneous advance
payments totaling $337,976 had been forwarded to the Andover Campus Accounts Management
branch for collection processing.
As discussed previously, the IRS carefully evaluates instances of erroneous payments to assess
trends and identify areas where procedures need to be enhanced. However, our review of
controls over the tracking and collection of advance payment-related receivables identified a
number of areas where improvement is needed.
   •   Collection actions taken on advance payment-related receivables were not always timely.
       Our review of a judgmental sample of 52 taxpayers who received erroneous advance
                                                                                          Page 3
                 Financial Controls Over the Health Coverage Tax Credit Advance
                             Payment Process Need to Be Enhanced



        payments, for which documentation was readily available, indicated there was an average
        lapse of 479 calendar days between the initial identification of the potentially erroneous
        payment and the first contact of the taxpayers by the Accounts Management branch to
        request repayment. The total amount of the receivables associated with the
        52 taxpayers was $73,667. Some of the delay is attributable to the IRS’ initial lack of a
        dedicated methodology for collecting advance payment-related receivables. The IRS
        informed us it did not anticipate the need for a methodology for controlling and collecting
        advance payment-related receivables when it first established the HCTC program. The
        IRS is presently reviewing an additional 274 cases to determine whether any advance
        payments were made in error and receivables need to be established. The IRS needs to
        establish minimum timeliness standards to guide this process in the future.
    •   The advance payment program taxpayer account ledger4 is not periodically updated to
        reflect receivable-related transactions, and an audit trial has not been established between
        the advance payment program taxpayer account ledger and the receivables ledger. As a
        result, advance payment receivables-related transaction activity is not included in any of
        the financial reports produced from the taxpayer account ledger and is available to
        program management only on an ad hoc basis. The absence of these key controls
        decreases the reliability of the data produced by the receivables ledger.
In addition, a Treasury Inspector General for Tax Administration report issued in
December 20045 identified that the classification of HCTC yearend refund disallowances as
erroneous payments could compromise the collectibility of the assessments because of limited
actions available due to the statute of limitations applicable to this type of liability. That audit,
which focused on the HCTC claimed at yearend, recommended that the IRS review the legal
status of yearend HCTC disallowances and determine if legislative action is necessary to change
the classification of liabilities relating to the disallowance of yearend HCTC refunds. This audit
identified similar concerns regarding erroneous advance payment refunds. For example, as of
January 2006, the IRS had already determined that $20,417 (6 percent) of the $337,976 in
erroneous advance payments was uncollectible due to expired statutes.
In response to our prior recommendation, the IRS noted it had been working with the Office of
Chief Counsel to find appropriate methods for collecting erroneous yearend payments within the
context of the existing law. The IRS further stated it will maintain that dialogue and determine
the need for and/or the possibility of legislative clarification in that area. In our opinion, it is
critical that the IRS carefully track receivables balances and recovery rates of both erroneous
yearend refunds and erroneous advance payments as the program matures, to aid in its
assessment of whether a legislative change is warranted.

4
  The system of records on which HCTC advance payment transaction information is captured, accumulated, and
compiled.
5
  The Health Coverage Tax Credit Was Accurately Processed During the 2004 Filing Season (Reference
Number 2005-40-017, dated December 2004).
                                                                                                       Page 4
                 Financial Controls Over the Health Coverage Tax Credit Advance
                             Payment Process Need to Be Enhanced



Recommendations
Recommendation 1: The Director, HCTC Program, should establish an audit trail between
the HCTC advance payment program taxpayer account ledger and the receivables ledger and
develop procedures requiring the regular update of the taxpayer account ledger with data from
the receivables ledger.
        Management’s Response: IRS management agreed with this recommendation. A
        manual process has been established that allows the HCTC Program Office to associate
        taxpayer receivable records in a subsidiary ledger with the advance payment program
        taxpayer account ledger. The IRS is also investigating automated solutions for directly
        updating the HCTC advance payment program taxpayer ledger that will remove the need
        for a receivables subsidiary ledger.
Recommendation 2: The Director, HCTC Program, should establish general time standards
for the processing of advance payment-related receivables.
        Management’s Response: IRS management agreed with this recommendation and is
        taking the necessary actions to establish general time standards for processing advance
        payment-related receivables consistent with IRS Examination function guidelines.
Recommendation 3: The Director, HCTC Program, should track receivables balances and
recovery rates for both erroneous yearend refunds and erroneous advance payments as the
program matures, to aid in assessment of whether a change in the treatment of these types of
liabilities is warranted.
        Management’s Response: IRS management agreed with this recommendation. The
        IRS currently tracks receivables balances and recovery rates for advance erroneous
        payments in a receivables ledger. The data collected in the ledger are being used to assist
        in making decisions on the treatment of repayment activities.

Advance Payment Information Provided to Taxpayers for Use in
Preparing Their Tax Returns Is Incomplete and Confusing
HCTC advance payment transaction information is captured, accumulated, and compiled by a
contractor the IRS has tasked with the day-to-day execution of the advance payment program.
Based on this information, the contractor annually issues a Health Coverage Tax Credit (HCTC)
Advance Payments (Form 1099-H)6 to program participants for use in preparing their tax returns.
Form 1099-H summarizes advance payments made to the taxpayer’s HPA. Taxpayers may also
claim a credit at yearend for any payments they made directly to their HPAs for eligible coverage


6
  Form 1099-H provides a taxpayer with the total amount of qualified health insurance payments paid in advance to
a qualified health insurance coverage provider by the Department of the Treasury on the taxpayer’s behalf.
                                                                                                          Page 5
                 Financial Controls Over the Health Coverage Tax Credit Advance
                             Payment Process Need to Be Enhanced



provided during the tax year. When calculating the credit, taxpayers must first determine the
number of months they received eligible coverage. Coverage must have been provided by the
first of any particular month for the taxpayer to be eligible for the program. The next step in
calculating the credit is determining how much was paid by the taxpayer and how much was paid
through the advance payment program for all eligible months. This step is complicated by the
fact that health insurance premiums are frequently paid in the month preceding the coverage
month.
In our opinion, the information provided to taxpayers on Form 1099-H regarding advance
payments is confusing and insufficiently detailed to readily support the taxpayers’ calculations of
any yearend credits they may be due. Specifically, Form 1099-H reports only the month and
amount of any advance payment(s) made to the taxpayer’s HPA; it does not provide any
information on the coverage period associated with the payment(s). Also, the instructions for the
TY 2005 Form 1099-H incorrectly inform the taxpayer that the amounts posted for each month
on Form 1099-H reflect only those payments made by the first of that month, when actually the
amount reported for each month reflects payments made any time during the month.
We advised IRS management of our concerns on January 9, 2006; they agreed with our
conclusions and prepared a one-page notice for inclusion with Form 1099-H for TY 2005. The
notice clarified the information provided on Form 1099-H and included additional instructions
regarding how this information should be used in calculating any yearend credit. The IRS
informed us that it presently does not accumulate sufficient data to accurately identify the
coverage period associated with any particular advance payment.
HCTC program participants rely on the information provided on Forms 1099-H when preparing
to claim the credit on their individual income tax returns. For example, if a taxpayer enrolls in
the HCTC program during the year prior to receiving advance payments, he or she may be
entitled to a credit at the end of the year for health coverage premiums paid. If the information
provided on Form 1099-H is incorrect, the taxpayer could receive less credit than that to which
he or she is entitled when preparing the required Health Coverage Tax Credit (Form 8885)7
needed to claim the credit. As a result, taxpayers who lost their jobs due to foreign trade
agreements or had their private employers’ pension plans terminated may not be receiving the
full benefits intended by law.




7
 Form 8885 is used by taxpayers eligible for the HCTC during the tax year who have not claimed the advance
HCTC for all eligible months.
                                                                                                        Page 6
                Financial Controls Over the Health Coverage Tax Credit Advance
                            Payment Process Need to Be Enhanced



Recommendations
Recommendation 4: The Director, HCTC Program, should revise Form 1099-H instructions
for TY 2006 to clearly indicate what the amount reported for each month on Form 1099-H
actually reflects. In addition, Form 8885 and associated instructions should be revised to better
explain how the information provided on Form 1099-H is used in claiming the yearend HCTC.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS has revised Form 8885 and its instructions for TY 2006 and revised Form 1099-H
       and associated instructions. The HCTC Program Office is also considering seeking
       authority to eliminate Form 1099-H.
       Office of Audit Comment: In our opinion, eliminating Form 1099-H, as the IRS
       indicated it is considering, could have an adverse impact on taxpayers’ ability to
       accurately calculate any yearend credit they may be due. Form 1099-H assists taxpayers
       by summarizing advance payments made to the taxpayers’ HPAs. Taxpayers may also
       claim a credit at yearend for any payments they made directly to their HPAs for eligible
       coverage provided during the tax year.
Recommendation 5: The Director, HCTC Program, should explore the feasibility of
accumulating the additional data needed to identify coverage periods and revise Form 1099-H
reporting to include these additional data.
       Management’s Response: IRS management agreed with this recommendation and is
       already gathering this kind of information. In addition, the HCTC Program Office has
       already adopted our recommendations to improve the clarity of Form 1099-H.

The Internal Revenue Service Lacks a Reliable and Comprehensive
Measure of the Overall Accuracy of Information Provided by
Taxpayers in Connection With Their Participation in the Health
Coverage Tax Credit Advance Payment Program
The advance payment program allows eligible taxpayers to receive the benefits provided by the
HCTC incrementally through the tax year so they do not have to wait until the end of the year
when they file their tax returns. The yearend tax credit and advance payment program processes
are similar, as both generally rely on the taxpayers to self-attest their eligibility for the program.
To assist taxpayers with the self-attestation process, the advance payment program application
includes a check sheet that summarizes the eligibility requirements. The advance payment
program also requires taxpayers to submit a copy of their most recent health coverage invoices
with the applications. The program registration application and associated invoice are reviewed
by a customer service representative employed by an IRS contractor. The IRS informed us that
the purpose of the contractor review is to establish general eligibility for the program and gather

                                                                                               Page 7
               Financial Controls Over the Health Coverage Tax Credit Advance
                           Payment Process Need to Be Enhanced



sufficient information to enter the taxpayer into the program. The customer service
representatives do not confirm in detail all information provided by the taxpayer on the
application, nor do they routinely contact the taxpayer’s HPA to validate information regarding
the taxpayer’s coverage. Taxpayers participating in the advance payment program are also
required to notify the IRS whenever changes occur to their health coverage policy information.
Although the advance payment program provided over $70 million in advance credit payments
in TY 2005, the IRS does not have a reliable and comprehensive measure of the accuracy of
information provided by taxpayers in connection with their participation in this program.
Timely, comprehensive, and reliable management information is critical to effective program
oversight. To study compliance trends relating to taxpayers who claimed the credit in TY 2003,
the IRS reviewed returns of 2,284 taxpayers who claimed the yearend credit. These reviews
resulted in partial or complete denial of 773 credits totaling $3 million. Approximately
500 examinations are in process or planned for taxpayers claiming the yearend credit in
TY 2004.
The IRS HCTC Program Office informed us that its primary focus to date, regarding the advance
payment program, has been developing and implementing the program and pursuing systemic
improvements. Without reliable and comprehensive information regarding taxpayer compliance
trends, the IRS HCTC Program Office can not effectively identify areas that require additional
emphasis during the application review process or where documentation requirements need to be
expanded.

Recommendation
Recommendation 6: To monitor taxpayer compliance trends, the Director, HCTC Program,
should initiate a process providing for routine evaluation of the compliance characteristics of a
representative sample of taxpayers receiving the HCTC through the advance payment program.
       Management’s Response: IRS management agreed with this recommendation and
       has established several initiatives to incorporate process reviews that monitor compliance
       trends. In June 2005, the HCTC program implemented a Vulnerability, Fraud, and
       Compliance Gap Risk Assessment process. A component of this process will provide for
       the development of a representative sample of taxpayers receiving advance payments, to
       evaluate their compliance characteristics.




                                                                                            Page 8
                  Financial Controls Over the Health Coverage Tax Credit Advance
                              Payment Process Need to Be Enhanced



                                                                                                 Appendix I


          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) had established effective controls over advance payments made in connection with the
Health Coverage Tax Credit (HCTC) program. To accomplish this objective, we:
I.      Determined whether the IRS had established effective procedures and controls to ensure
        the private contractor administering advance HCTC payments accurately records
        payment transactions and prevents and detects improper payments.
        A. Interviewed HCTC Program Office and contractor personnel to ascertain procedures
           and controls over advance payments and associated taxpayer remittances.
        B. Performed an onsite walk-through of the advance payment process and evaluated the
           status of controls ascertained above.
        C. Analyzed a judgmental sample of 82 taxpayers for whom HCTC advance payments
           were made in Tax Year (TY) 2004. This sample was selected from a subpopulation
           of 11,049 of the total 18,784 taxpayers identified on the IRS Master File1 database as
           having received an HCTC advance payment in TY 2004. The subpopulation was the
           result of a programming error that inadvertently excluded cases from our sample
           population. Our subsequent detailed analysis of the range and characteristics of the
           cases excluded indicated that their absence had no material effect on the reliability of
           our sample results. In addition, we reviewed a judgmental sample of 52 taxpayers
           who had received erroneous advance payments for TY 2004. This sample
           represented all erroneous payment receivables for which complete documentation
           was available at the time of our testing. As of January 2006, 165 receivables related
           to erroneous advance payments had been forwarded for collection processing. We
           used judgmental sampling to expedite our review and because we did not intend to
           project our results to the entire HCTC recipient population.
II.     Determined whether the IRS had established an effective methodology to monitor
        delivery of the HCTC advance payment program.
        A. Evaluated the methodology used to accumulate and compile management information
           regarding the HCTC advance payment program.


1
 The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                           Page 9
                 Financial Controls Over the Health Coverage Tax Credit Advance
                             Payment Process Need to Be Enhanced



        B. Analyzed key measures used by HCTC program management to measure program
           effectiveness.
III.    Evaluated HCTC Program Office efforts to educate taxpayers on the availability of the
        advance payment program.
As part of our evaluation of controls over HCTC advance payments, we reviewed
computer-processed data from the IRS Master File and the HCTC advance payment program
taxpayer account ledger2 relating to TY 2004 advance payments. To assess the reliability of
these data, we tested for missing data, values outside expected ranges, and dates outside valid
time periods. We also compared source documents to the data to further validate our results.
Our overall purpose in using these data was to test the operation of selected financial
management internal controls, and we did not rely on the data alone to answer any of our
objectives.
Overall, we found the data to be sufficiently reliable to meet our objective of assessing the
operation of controls over routine payment transactions. However, our overall evaluation of
internal controls over advance payments did identify that certain types of nonroutine
payment-related transactions are not posted to the HCTC advance payment program taxpayer
account ledger. The effect of this control weakness is discussed in detail in the second finding
within the report.




2
 The system of records on which HCTC advance payment transaction information is captured, accumulated, and
compiled.
                                                                                                    Page 10
              Financial Controls Over the Health Coverage Tax Credit Advance
                          Payment Process Need to Be Enhanced



                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Anthony J. Choma, Audit Manager
Joseph F. Cooney, Lead Auditor
James S. Mills, Jr., Senior Auditor
Mildred Woody, Senior Auditor
Kanika Kals, Auditor
Richard Louden, Auditor
Seth A. Siegel, Auditor
Dorothy Richter, Information Technology Specialist




                                                                                      Page 11
             Financial Controls Over the Health Coverage Tax Credit Advance
                         Payment Process Need to Be Enhanced



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief Financial Officer OS:CFO
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Health Coverage Tax Credit Program, Wage and Investment Division SE:W:HCTC
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief Financial Officer OS:CFO
       Chief, Customer Liaison, Wage and Investment Division SE:W:S:W




                                                                                Page 12
   Financial Controls Over the Health Coverage Tax Credit Advance
               Payment Process Need to Be Enhanced



                                                    Appendix IV

Management’s Response to the Draft Report




                                                           Page 13
Financial Controls Over the Health Coverage Tax Credit Advance
            Payment Process Need to Be Enhanced




                                                        Page 14
Financial Controls Over the Health Coverage Tax Credit Advance
            Payment Process Need to Be Enhanced




                                                        Page 15
Financial Controls Over the Health Coverage Tax Credit Advance
            Payment Process Need to Be Enhanced




                                                        Page 16
Financial Controls Over the Health Coverage Tax Credit Advance
            Payment Process Need to Be Enhanced




                                                        Page 17
